         Management Letter
                for the
U.S. Federal Labor Relations Authority




    For the year ended September 30, 2009
November 15, 2009

To the Federal Labor Relations Authority
Washington, D.C.

We present, for your consideration, our comments and recommendations regarding internal
controls and other matters. These comments and recommendations are intended to improve the
internal control structure or to result in other operating efficiencies for the Federal Labor
Relations Authority. The factual accuracy of our comments has been reviewed with management
so as to obtain their concurrence prior to the development of our recommendations for
improvement. Matters commented upon represent findings during the audit and have not been
reviewed subsequent to November 15, 2009.

Although the Federal Labor Relations Authority financial management system has many positive
attributes, a management letter is critical by nature because its purpose is to identify areas where
improvements can be made. It is also important to understand that it is generally not practical to
achieve ideal internal control in the complex governmental accounting environment.

We would like to acknowledge the courtesy and assistance extended to us by FLRA and National
Business Center personnel during the course of our audit.

Sincerely




                     Harper, Rains, Knight & Company, P.A. • Certified Public Accountants • Consultants
              One Hundred Concourse • 1052 Highland Colony Parkway, Suite 100 • Ridgeland, Mississippi 39157
                          Telephone 601.605.0722 • Facsimile 601.605.0733 • www.hrkcpa.com
                          U.S. Federal Labor Relations Authority
                                 2009 Management Letter

Table of Contents
FLRA CONSIDERATIONS                                                                3

PAYROLL                                                                            3
USER CONTROL CONSIDERATIONS OF A THIRD PARTY SERVICE ORGANIZATION CLIENT           3

NBC CONSIDERATIONS                                                                 5

IMPUTED FINANCING SOURCES AND COSTS                                                5
RETROACTIVE APPLICATION OF CURRENT YEAR COST FACTORS TO QUARTERLY LEDGER ENTRIES   5




                                             2
FLRA Considerations
Payroll
User Control Considerations of a Third Party Service Organization Client

The USDA National Business Center’s ‘Federal Personnel and Payroll System (FPPS) Report on
Controls Placed in Operation and Tests of Operating Effectiveness (SAS 70) for the Period of July 1,
2008 – June 30, 2009’, dated July 10, 2009, expresses an opinion that the controls described therein
present fairly, in all material respects, the relevant aspects of the NBC’s controls that had been placed in
operation within the period reported on. In regards user control considerations by clients of NBC, the
report states, in summary:

Federal Personnel and Payroll System (FPPS) general information technology and payroll
operations controls at the National Business Center (NBC) were designed with the assumption
that certain controls would be designed and implemented by user organizations, in this case the
Federal Labor Relations Authority (FLRA). The following internal controls are the responsibility
of FLRA:

    1. Controls to provide reasonable assurance that physical and logical access to NBC
       applications, using computer terminals at client locations, is restricted to authorized
       individuals.

    2. Controls to provide reasonable assurance that designated FPPS Security Points of
       Contacts (SPOC) and Quicktime Master (and local) Administrators ensure that the
       client’s employees and contractors adhere to rules of behavior with respect to the use
       and protection of the NBC-managed computer systems and applications, based on
       applicable government security guidelines and recommendations.

    3. Controls to provide reasonable assurance that audit reports made available by the NBC
       are reviewed and any appropriate actions are taken.

    4. Controls to provide reasonable assurance that Computer Incident Response procedures
       for NBC-managed systems have been developed in coordination with the NBC.

    5. Controls to provide reasonable assurance that the NBC is provided prompt written
       notification of changes for individuals who are authorized to add, change, and delete
       user access to FPPS application production regions (i.e., SPOC).

    6. Controls to provide reasonable assurance that user access to FPPS payroll and
       personnel functions is properly authorized and assigned, segregation of duties is properly
       maintained, and separating employees and contractors’ access to NBC applications is
       timely removed.



                                                     3
   7. Controls to provide reasonable assurance that Labor Cost Files are reconciled for
      accuracy.

   8. Controls to provide reasonable assurance that payroll transactions, including pay
      adjustments and T&A corrections, are timely provided to the NBC for input into FPPS.

   9. Controls to provide reasonable assurance that payroll transactions provided to the NBC
      are complete, accurate, and appropriately authorized and approved.

   10. Controls to provide reasonable assurance that personnel transactions are properly
       authorized and input into FPPS.

   11. Controls to provide reasonable assurance that the requirements detailed in the “National
       Business Center (NBC) Information Technology (IT) Security Services Advisory (SSA)
       For All NBC IT Customers” are met. The SSA is part of a customer’s Interagency
       Agreement with NBC.

   12. Controls to provide reasonable assurance that access to Quicktime is restricted to
       properly authorized users and duties are properly segregated.

During the course of our test work, through discussions and interviews with members of
management, and through procedures performed to complete our testing, we determined that of
the twelve preceding user control considerations, all were applicable to the operations of FLRA.
Of the twelve user control considerations, we noted that we were able to confirm that seven were
performed by management at FLRA. However, we were not able to review sufficient
documentation to determine whether the remaining five were performed.

Our recommendation to FLRA is that they develop a consolidated policy manual to address the
user control considerations brought forward in the NBC FPPS SAS 70. This process could be
accomplished in a relatively short time period, and would strengthen documentation of control
documentation within the organization, so that they may more adequately comply with oversight
related to controls, such as OMB Circular No. A-123, Appendix A.

The Federal Labor Relations Authority is not required to adhere to OMB Circular No. A-123,
Appendix A, which details specific requirements for management’s assessment of the
effectiveness of internal control over financial reporting within their agency. However, an
effective internal control structure minimizes the control risk of material misstatement of
accounting transactions, which lowers overall audit risk, allowing for a higher reliance on
documented controls and lowered levels of substantive testing by the auditor, creating a less
invasive audit for the agency.




                                               4
NBC Considerations
Imputed Financing Sources and Costs
Retroactive Application of Current Year Cost Factors to Quarterly Ledger Entries

During the course of our test work over imputed financing sources and costs we noted that
instead of recording imputed cost annually, NBC records it, on behalf of FLRA, on a quarterly
basis. In FY 2009, it was recorded at the prior year's cost factors for the first three quarters. Prior
to recording the 4th Quarter amount of imputed financing sources and costs, the annual
Administrative Benefits letter from OPM was published, changing the cost factors from those of
the previous year. We noted that the 4th quarter was recorded at the correct percentage.
However, previous quarters were not adjusted to reflect the cost factors for FY 2009.

We believe that NBC should continue to record imputed financing sources and costs on a
quarterly basis. However, we believe that any changes to OPM cost factors contained in the
current year’s letter should result in an adjustment of prior quarter amounts of imputed financing
sources and costs in the general ledger.




                                                  5
